No. _______

In the
Supreme Court of the United States
In re Alfred Paul Centofanti, III
Alfred Paul Centofanti, III,
Petitioner,
v.
United States District Court, District of Nevada,
Respondent,
and
Dwight W. Neven and the Attorney General of Nevada,
Real parties in interest.
On Petition for Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit
Proof of service

Rene L. Valladares
Federal Public Defender, District of Nevada
*Jeremy C. Baron
Assistant Federal Public Defender
411 E. Bonneville Ave. Suite 250
Las Vegas, Nevada 89101
(702) 388-6577 | jeremy_baron@fd.org
*Counsel of record for Alfred Centofanti

I certify I represent Alfred Centofanti through appointment under the
Criminal Justice Act of 1964, see 18 U.S.C. §§3006A(a)(2)(B), 3006A(d)(7), and am
authorized to file a petition for a writ of certiorari on Mr. Centofanti’s behalf. I certify
that on January 22, 2021, I served counsel for the State with copies of the following
documents:
1. Motion for leave to proceed in forma pauperis;
2. Petition for a writ of certiorari;
3. Appendix; and
4. Proof of service.
Counsel for the State’s name and contact information are: Jeffrey Conner, Deputy
Solicitor General, 100 N. Carson Street, Carson City, Nevada, 89701, (775) 684-1136.
I certify I served counsel for the State with copies of these documents via
electronic means. On April 15, 2020, this Court entered a standing order authorizing
electronic service with the parties’ consent. The Office of the Attorney General for
the State of Nevada has given blanket consent to electronic service.

Dated January 22, 2021.
Respectfully submitted,
Rene L. Valladares
Federal Public Defender
/s/Jeremy C. Baron
Jeremy C. Baron
Assistant Federal Public Defender
1

